Audit of the Louisiana Medicaid Disproportionate Share Hospital Program - Louisiana State University Medical Center-Shreveport, Louisiana,"(A-06-00-00058)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Louisiana Medicaid Disproportionate Share Hospital Program
- Louisiana State University Medical Center-Shreveport, Louisiana," (A-06-00-00058)
June 8, 2001
Complete
Text of Report is available in PDF format (773 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicaid provides that States make additional payments (called disproportionate
share hospital [DSH] payments) to hospitals for the uncompensated costs of serving
disproportionate numbers of low-income patients with special needs.  This
final report points out that in the States 1998 fiscal year Louisianas
DSH payments to the Louisiana State University Medical Center Hospital at Shreveport
exceeded uncompensated costs by a net of approximately $4.5 million.  In addition
to financial adjustments, we recommended implementation of controls to assure DSH
payments are determined accurately in the future.   Auditee officials concurred
with our findings and recommendations, and stated the funds have been repaid.